      FINANCIAL MANAGEMENT:

Bureau of Customs And Border Protection

   Needs To Improve Compliance With 

  The Continued Dumping And Subsidy

     Offset Act Of 2000 (CDSOA)



  OIG-03-085                  June 17, 2003




     Office of Inspector General

                *******


      The Department of the Treasury

Contents


Audit Report .........................................................................................................3


    Results in Brief ....................................................................................................3


    Background .........................................................................................................4


    Findings and Recommendations............................................................................5


        Special Accounts Should Be Used and Maintained............................................5

        Recommendation............................................................................................8


        $25 Million in Overpayments Occurred............................................................8

        Recommendation .........................................................................................10


        Procedures Should Be Established to Manage the Program..............................10

        Recommendation..........................................................................................12


        Disbursements Should Be Made Timely..........................................................12

        Recommendations ........................................................................................13


    Management Considerations ..............................................................................14


        Comprehensive Annual Report Not Published Timely ......................................15


        Large Number of Open Bills...........................................................................16


        Large Number of Unliquidated Entries ............................................................17


        Limited Verification of Qualifying Expenditures...............................................18


Appendices

    Appendix      1:      Objectives, Scope, and Methodology ..........................................20

    Appendix      2:      Disbursement Calculation……………………………………………… 21

    Appendix      3:      Management Comments…………………………………………………23

    Appendix      4:      Major Contributors to This Report.............................................. 29

    Appendix      5:      Report Distribution.................................................................... 30





                            Customs Needs to Improve Compliance with CDSOA               OIG-03-085                Page 1

Contents


Abbreviations

  ACE           Automated Commercial Environment

  ACS           Automated Commercial System

  CDSOA         Continued Dumping and Subsidy Offset Act of 2000

  CFR           Code of Federal Regulations

  Commerce      Department of Commerce

  Customs       Bureau of Customs and Border Protection 

                (Formerly the United States Customs Service)
  DHS           Department of Homeland Security
  FY            Fiscal Year
  OFO           Office of Field Operations
  OIG           Office of Inspector General
  OIT           Office of Information and Technology
  USC           United States Code




                Customs Needs to Improve Compliance with CDSOA   OIG-03-085   Page 2
                                                                                   Audit
OIG
The Department of the Treasury
                                                                                   Report
Office of Inspector General


Results in Brief
                      The audit work we completed disclosed that the Bureau of
                      Customs and Border Protection (Customs) was in noncompliance
                      with the law and implementing regulations related to the
                      disbursement of certain antidumping and countervailing duties.
                      Customs was in noncompliance with the law because it did not
                      (1) properly establish special accounts, and (2) pay claimants
                      within 60 days after the end of the fiscal year. In addition,
                      Customs had not instituted standard operating procedures and
                      adequate internal controls for the management of the Continued
                      Dumping and Subsidy Offset Act of 2000 1 (CDSOA) program.

                      As a result of the noncompliance with regulations and inadequate
                      internal controls, the government has experienced at least a
                      $25 million shortfall in its accounts.

                      During the course of our audit, we identified four other issues that
                      warrant management’s attention. These issues relate to:
                      (1) untimely publishing of a comprehensive annual report on the
                      fiscal year 2001 CDSOA payments, (2) $97 million in open
                      (unpaid) antidumping and countervailing duty bills and interest,
                      (3) one million unliquidated antidumping and countervailing duty
                      entries totaling about $2 billion, and (4) qualifying expenditures
                      claimed by affected domestic producers not verified routinely.
                      However, if Customs effectively implements its planned corrective
                      actions, this should provide the public and the United States (U.S.)
                      Congress timely, informative data about the program, and result in
                      more timely distribution of a substantial amount of CDSOA duties
                      and interest.



1
  The Continued Dumping and Subsidy Offset Act of 2000 was enacted October 28, 2000, under
Title X of the appendix to Public Law 106-387, and amended Title VII of the Tariff Act of 1930
(19 USC 1671 et seq.) by insertion of section 754, Continued Dumping and Subsidy Offset (codified as
19 USC 1675c).



                      Customs Needs to Improve Compliance with CDSOA     OIG-03-085           Page 3
Background
             In late 2000, the U.S. Congress enacted Public Law 106-387
             (Agriculture, Rural Development, Food and Drug Administration,
             and Related Agencies Appropriations Act, 2001), which included
             the CDSOA. The intent of the CDSOA was to protect domestic
             producers from unfair trade practices. The CDSOA (codified as
             19 U.S. Code [USC] 1675c) amended the Tariff Act of 1930 and
             instructed Customs to put certain antidumping and countervailing
             duties into special accounts. Then, each year, the money collected
             would be disbursed by Customs directly to affected domestic
             producers. Previously, all antidumping and countervailing duties
             collected were transferred to the Treasury General Fund.

             Antidumping duties are imposed on imported merchandise that the
             Department of Commerce (Commerce) finds is, or likely to be, sold
             in the U.S. at less than its fair market value. Countervailing duties
             are imposed upon imported merchandise that Commerce
             determines benefits from actionable subsidies bestowed by a
             foreign government. The CDSOA applied to all antidumping and
             countervailing duty assessments made on or after October 1,
             2000, in connection with all antidumping or countervailing duty
             orders in effect as of January 1, 1999, or thereafter.

             It is Customs’ responsibility to determine that all payments
             received from antidumping and countervailing duties are disbursed
             to qualifying domestic producers in accordance with the
             regulations. In general, those regulations require each affected
             domestic producer to submit a certification, which enumerates the
             qualifying expenditures incurred since the issuance of an
             antidumping or countervailing duty order issued by Commerce, as
             well as evidence that the producer is eligible to receive a
             distribution. Customs published its final implementing CDSOA
             regulations (19 Code of Federal Regulations [CFR] Chapter 1, Parts
             159 and 178) in the Federal Register on September 21, 2001.

             For fiscal year 2001, Customs made CDSOA payments of
             approximately $231 million and for fiscal year 2002 approximately
             $329 million was paid under this program.


             Customs Needs to Improve Compliance with CDSOA   OIG-03-085     Page 4
Findings and Recommendations

Finding 1   Special Accounts Should Be Used and Maintained

            Customs did not establish individual special accounts as required
            by law under 19 USC 1675c(e)(1), which states, in part, that:

                        …within 14 days after the date an antidumping
                        order or finding or countervailing duty order
                        issued after the effective date takes effect, the
                        Commissioner shall establish in the Treasury of
                        the United Sates a special account with
                        respect to each such order or finding. [Italics
                        applied]

            One Special Account was established to receive assessed duties
            from all antidumping and countervailing duty cases liquidated,
            instead of one special account for each case. Additionally, due to
            the nuances of the Automated Commercial System (ACS), all open
            bills are included in the special account when the bills are
            generated (assessed) by the system, instead of when the open bills
            are actually collected. This results in the Special Account balance
            consisting of both paid and unpaid amounts.

            Appropriate laws and regulations pertaining to the special account
            and what is to be deposited into them are as follows:

                    19 USC 1675c:

                       (e)(2) The Commissioner shall deposit into the
                       special accounts, all antidumping and
                       countervailing…duties that are assessed after
                       the effective date of this section….

                       (e)(3) Consistent with the requirements of
                       subsections (c) and (d) of this section, the
                       Commissioner shall by regulation prescribe the




             Customs Needs to Improve Compliance with CDSOA   OIG-03-085    Page 5
          time and manner in which distribution of the
          funds in a special account shall be made.

          (c) …that the distribution will be made within
          60 days after the first day of a fiscal year from
          duties assessed during the preceding fiscal
          year.

          (d)(3) …all funds shall be distributed from
          assessed duties received in the preceding fiscal
          year. [Italics applied]

          19 CFR 159.64:

          (b)(1)(i) No later than 60 days after the end of
          the fiscal year, Customs will distribute the
          assessed duties transferred from the Clearing
          Accounts and received into the Special
          Accounts. [Italics applied]

          (b)(1)(iii) The amount transferred at liquidation
          to the Special Account will be dependent upon
          the amount actually collected on the entry and
          in the Clearing Account. Following liquidation,
          additional transfers will be made on the
          liquidated entry to the corresponding Special
          Account, as additional antidumping or
          countervailing duties are collected. [Italics
          applied]

It was intended when the law was written, that the balances in the
special accounts at the end of a fiscal year would be available to
disburse to affected domestic producers. Customs’ personnel were
aware of the legal requirements for establishing special accounts
for each order. They believed that with more than 600 orders, a
special account for each order was unmanageable; therefore, they
established only one Special Account. However, Customs did not
complete the programming of ACS necessary to make the Special
Account operational until September 12, 2001, nearly a year after


Customs Needs to Improve Compliance with CDSOA   OIG-03-085   Page 6
the effective date of CDSOA. This resulted in an inaccurate
balance in the Special Account at fiscal year-end. Since the
Special Account balance was not reliable, it became necessary to
compute the amount available to disburse to affected domestic
producers in fiscal years 2001 and 2002 by completing a manual,
detailed calculation. (See Finding 2 on computation of amount
available to disburse to affected domestic producers).

To be consistent with the public law and the CFR, Customs should
include only assessed duties received in the Special Account. By
only including duties received, a manual, detailed calculation would
not be necessary to determine the amount to be distributed to
affected domestic producers.

Additionally, during fiscal year 2002, Customs’ personnel noted
numerous double counting errors resulting from a programming
error within the Special Account, thereby rendering the Special
Account balance at September 30, 2002, unreliable. It is also our
understanding that no one is monitoring the account or reconciling
the account balance at fiscal year-end to funds to be disbursed.

Having a correct and reliable balance within the one Special
Account would eliminate the need for a manual, detailed
calculation that may result in future errors similar to the
overpayments noted in Finding 2, page 8, of this report.

We are also aware that the ACS, as presently designed, may not
allow for the recommendation noted to be implemented without
substantial computer programming changes being made. We also
understand that the new operating system, the Automated
Commercial Environment (ACE), is being designed. ACE should be
reviewed to assure that this system would allow for the
implementation of our recommendation.

Recommendation

The Commissioner of Customs and Border Protection should ensure
that:




Customs Needs to Improve Compliance with CDSOA   OIG-03-085    Page 7
            1.	 Customs, as a minimum, obtains control over the one Special
                Account so that the balance in the Special Account on the
                payment determination date (September 30) is reliable.

            Management Comments

            Customs agreed with the recommendation. As a result, Customs
            has established a Continued Dumping and Subsidy Offset Act
            (CDSOA) Working Group. This group will review the process
            relating to the Special Account and prepare recommendations to
            senior management.

            OIG Comment

            We consider this recommendation to have a management decision
            with a target completion date of December 2003.

Finding 2   $25 Million In Overpayments Occurred

            Customs had not established adequate internal controls to prevent
            erroneous payments of antidumping and countervailing duty claims.
            As a result of inadequate internal controls, affected domestic
            producers received, in aggregate, overpayments of at least
            $25 million, and likely more. The overpayments were comprised
            of: (1) $24 million resulting from an error in the computation of
            the amount available to disburse, and (2) $1 million resulting from
            overpaying two domestic producers and excluding another.

            As a direct result of not being able to rely on the balance in the
            Special Account, it became necessary for Customs’ personnel to
            arrive at the amount available to disburse by performing a manual,
            detailed calculation. An explanation of this calculation formula is
            provided in Appendix 2.

            Open bills for fiscal year 2001, that still remained unpaid at
            September 30, 2002, did not appear to be included in the
            calculation of the amount to be disbursed to affected domestic
            producers. Customs’ personnel determined that open bills for fiscal
            year 2001 had not been considered in their calculation. This error


            Customs Needs to Improve Compliance with CDSOA   OIG-03-085    Page 8
resulted in $24 million in overpayments to some affected domestic
producers in fiscal year 2002.

It is important to note that the error would have been even greater
had the open bill report for fiscal year 2001 been generated on
September 30, 2002, rather than the actual run date of
January 16, 2003. Customs’ personnel stated that the fiscal year
2001 open bill report could not be generated for a date other than
the date they requested the report, January 16, 2003. The
amount of payments on fiscal year 2001 open bills collected from
October 1, 2002, until the report run date of January 16, 2003,
would also need to be added to the previously noted $24 million to
arrive at the correct amount overpaid only as it relates to the fiscal
year 2001 open bill issue.

It should also be noted that a review of 2002 open bills
outstanding as of September 30, 2002, indicated a report
generation date of November 20, 2002. Therefore, collections on
2002 open bills during the period October 1, 2002, through
November 20, 2002, may also amount to an overpayment of fiscal
year 2002 distributions.

In addition to collections on open bills noted above, other factors
may have caused a change in the open bill balances, such as write-
offs or cancellations. Due to divestiture of our staff to DHS, we
were not able to perform testing to determine if such items actually
affected the overpayment issue.

In addition to the $24 million in overpayments noted above, a
separate overpayment situation occurred involving three domestic
producers. In this situation, one of these producers was
overlooked on a particular case, which resulted in the two other
affected domestic producers erroneously receiving the overlooked
company’s share of the distribution, approximately $1 million. The
affected domestic producer that was overlooked was later paid
approximately $1 million from the Treasury General Fund.

On April 23, 2003, the Commissioner determined that the overpaid
companies would be billed immediately for the overpayments.


Customs Needs to Improve Compliance with CDSOA   OIG-03-085      Page 9
            Recommendation

            The Commissioner of Customs and Border Protection should ensure
            that:

            1.	 All overpaid affected domestic producers are billed immediately
                for the overpayments.

            Management Comments

            Customs agreed with the recommendation. The Commissioner has
            directed the Offices of Regulations and Rulings, Finance, Field
            Operations, and Information and Technology to collect the
            overpayments immediately. Collection letters have been drafted
            and will be issued as soon as possible. However, a further
            reconciliation of the total open bills relating to the 2002
            distributions is being conducted and may result in a change in the
            total overpayment amount.

            OIG Comment

            We consider this recommendation to have a management decision
            with a target completion date of June 2003.

Finding 3   Procedures Should Be Established to Manage the Program

            Customs did not have (1) specific written standard policies and
            procedures for processing CDSOA claims or (2) adequate
            separation of duties. CDSOA is a new and unique program and
            should have clearly defined internal controls. Customs had no
            written standard operating procedures for: (1) processing CDSOA
            payments, (2) reconciling the Special Account, (3) reviewing
            certifications, and (4) determining the amount of monies available
            for distribution. Failure to establish written procedures and to
            ensure adequate separation of duties contributed to the $25 million
            in overpayments, as discussed in Finding 2.

            The General Accounting Office’s (GAO) Standards for Internal
            Control in the Federal Government, states:


            Customs Needs to Improve Compliance with CDSOA   OIG-03-085   Page 10
                              Internal control and all transactions and other
                              significant events need to be clearly documented,
                              and the documentation should be readily available
                              for examination. The documentation should appear
                              in management directives, administrative policies,
                              or operating manuals and may be in paper or
                              electronic form. All documentation and records
                              should be properly managed and maintained.2

                      In addition, the GAO’s Standards for Internal Control in the Federal
                      Government, Segregation of Duties, states, “No one individual
                      should control all key aspects of a transaction or event.”3

                      At present, the CDSOA Program Manager is responsible for:
                      (1) reviewing certifications, (2) determining the amount available
                      for distribution, and (3) verifying supporting documentation for
                      qualifying expenditures. The functionality and institutional
                      knowledge of the program rests primarily with this individual. In
                      the event the person with the institutional knowledge is not
                      available to carry out the program, written procedures governing
                      the CDSOA program should be available. Additionally, other
                      persons should be cross-trained to carry out the program.

                      The public accounting firm of KPMG reviewed Customs’ fiscal year
                      2002 financial statements. After the review was completed,
                      KPMG auditors apprised us that they issued a Notice of Findings
                      and Recommendation that stated:

                                 Customs has not implemented policies and
                                 procedures to establish internal controls over
                                 processing and recording affected Injured
                                 Domestic Industry [CDSOA] transaction claims.
                                 Policies regarding the retention of adequate
                                 supporting documentation as well as the process
                                 in place to maintain adequate internal controls
                                 are not codified.

2
  Standards for Internal Control in the Federal Government (GAO/AIMD-00-21.3.1), p.15, 

November 1999.

3
  Ibid, p. 14




                       Customs Needs to Improve Compliance with CDSOA     OIG-03-085       Page 11
            Recommendation

            The Commissioner of Customs and Border Protection should ensure
            that:

            1.	 KPMG’s recommendation to codify the policy and procedures in
                effect for the CDSOA is implemented.

            Management Comments

            Customs agreed with the recommendation. Customs management
            has assigned the CDSOA Working Group the task of reviewing
            existing procedures and making recommendations for process
            improvements to senior management. Once an option has been
            selected, the CDSOA Working Group will oversee efforts to
            establish the appropriate documented internal controls and
            standard operating procedures.

            OIG Comment

            We consider this recommendation to have a management decision
            with a target completion date of December 2003.

Finding 4   Disbursements Should Be Made Timely

            Customs did not disburse the fiscal year 2002 CDSOA payments
            within the 60-day time frame mandated by law. Those payments
            were disbursed approximately 85 days after fiscal year-end. Also,
            as late as May 2002, Customs processed additional fiscal year
            2001 CDSOA payments for more than $25 million.

            Title 19 USC 1675c(c) states: “Such distribution shall be made not
            later than 60 days after the first day of a fiscal year from duties
            assessed during the preceding fiscal year.” When disbursements
            are not made timely, the affected domestic producers are deprived
            of the use of those funds.

            According to the CDSOA Program Manager, the late payments
            occurred because of automated programming errors and staffing


            Customs Needs to Improve Compliance with CDSOA   OIG-03-085   Page 12
problems. The Program Manager provided the OIG with a copy of
a memorandum from the Assistant Commissioner, Office of
Regulations and Rulings, to the Deputy Commissioner that stated:

       Due to some program errors, we did not receive
       the information from OIT [Office of Information and
       Technology] required for computing the dollar
       amounts available to disburse for FY [fiscal year]
       2002 until Tuesday, November 12, 2002.
       Additionally, the OFO [Office of Field Operations]
       representative who manages the Byrd [CDSOA]
       database has upcoming critical field-work in
       connection with the Border Security Program. The
       combination of these events will likely result in
       Customs not meeting the statutory deadline for the
       disbursement of 60 days after the end of the fiscal
       year, or November 29th.

The CDSOA provides for annual payments to the affected domestic
producers. Therefore, addressing programming and staffing issues
prior to fiscal year-end should result in timely distribution in future
years.

Recommendation

The Commissioner of Customs and Border Protection should ensure
that:

1. CDSOA programming issues are addressed more timely.

Management Comments

Customs agreed with the recommendation. As a result, process
improvements for the fiscal year 2003 payment cycle are being
developed that will address the timeliness and accuracy
observations in this report.




Customs Needs to Improve Compliance with CDSOA   OIG-03-085     Page 13
            OIG Comment

            We consider this recommendation to have a management decision
            with a target completion date of December 2003.

            2.	 The CDSOA program is adequately staffed to meet the
                statutory deadline for distribution.

            Management Comments

            Customs agreed with the recommendation. The CDSOA Working
            Group will address this issue. The Group will prepare
            recommendations on organizational staffing to senior management.

            OIG Comment

            We consider this recommendation to have a management decision
            with a target completion date of December 2003.

Management Considerations
            During the course of our audit, we identified four other issues that
            we believe warrant management’s attention. These issues relate
            to:

                •	 Untimely publishing of a comprehensive annual report on the
                   fiscal year 2001 CDSOA payments;

                •	 $97 million (comprised of $24 million for fiscal year 2001, at
                   January 16, 2003, and $73 million for fiscal year 2002, at
                   November 20, 2002) in open (unpaid) antidumping and
                   countervailing duty bills and interest.
                •	 One million unliquidated antidumping and countervailing duty
                   entries totaling about $2 billion, as of March 13, 2003; and

                •	 Qualifying expenditures claimed by affected domestic
                   producers not verified on a routine basis.




             Customs Needs to Improve Compliance with CDSOA   OIG-03-085   Page 14
1. Comprehensive Annual Report Not Published Timely

Customs did not timely publish on its website a comprehensive
annual report for the fiscal year 2001 CDSOA payments. After its
fiscal year 2001 CDSOA disbursements, Customs published a
limited information report that consisted of a claimant’s case
number and associated dollar amount remaining in the clearing
account balance as of October 1, 2001. A final report for the
fiscal year 2001 CDSOA payments was not published until
February 2003.

Title 19 CFR 159.64(g) states, in part:

       Although not mandated by law, an annual report on
       disbursements will be made available to the public on
       Customs’ website. This annual report will include…company
       specific information, such as, the name of the claimant, the
       total dollar amount claimed on the certifications, and the
       total dollar amount disbursed to that claimant by Customs.
       The annual report will also contain general
       information…[such as] the: (1) number of entries and dollar
       amounts in the clearing account at the beginning of each
       fiscal year; (2) number and amount of re-liquidations during
       the fiscal year; (3) dollar amounts remaining uncollected
       from Customs’ bills issued during the fiscal year.

To comply with its regulations, Customs should have published
company specific and general information for each antidumping or
countervailing duty order by case number in its annual report on
the fiscal year 2001 CDSOA payments. A variety of factors may
have contributed to the noncompliance, such as the newness of
the program, lack of written standard operating procedures, lack of
sufficient resources to process the claims, and overall management
inattention.

In January 2003, the CDSOA Program Manager told us that
Customs does not intend to expand on the limited information
(balance in clearing account at October 1, 2001, and preliminary
disbursement listing) in the fiscal year 2001 CDSOA report


Customs Needs to Improve Compliance with CDSOA   OIG-03-085   Page 15
currently on Customs’ website. However, the Program Manager
intends to publish a comprehensive report on the fiscal year 2002
CDSOA payments.

The CDSOA Program Manager said that a comprehensive report on
CDSOA payments that is available to the public is a good peer
check. Customs hopes that affected domestic producers will
report any suspicious or misleading claims by competitors.
Additionally, information on unliquidated entries and outstanding
bills allows affected domestic producers and the U.S. Congress to
be aware of the volume of unliquidated entries or uncollected bills.
Not providing a comprehensive final report for fiscal year 2001
CDSOA disbursements deprived the public and the U.S. Congress
of timely, informative data about the program.

Management Comments

Customs management plans to take steps to insure that a timely
and more comprehensive report is provided in fiscal year 2003.

2. Large Number of Open Bills

Importers or sureties are protesting a large number of the open
(unpaid) bills. As of January 16, 2003, approximately $24 million
of fiscal year 2001 open bills and interest remained outstanding.
Approximately $73 million of fiscal year 2002 open bills and
interest were outstanding as of November 20, 2002. Of the fiscal
year 2002 total, approximately $48 million related to one specific
case involving imported crayfish, of which about $35 million was
under protest.

The collection efforts on open bills do not commence until all
protests have been cleared. The CDSOA Program Manager told us
that the majority of protests could be resolved quickly, as there are
only several valid reasons to file protests: (1) the wrong rate was
applied, (2) the goods imported were not covered by the dumping
order, or (3) Customs did not act promptly on liquidation.




Customs Needs to Improve Compliance with CDSOA   OIG-03-085   Page 16
The clearing of protests should be given a high priority so that
collection procedures can be implemented. Customs' personnel
have indicated they will attempt to stratify the open bills by port of
entry. Listings of the open bills would then be sent to each port
for follow-up and resolution. Customs would continue to run these
reports on a periodic basis to assure that progress was being made.
We strongly encourage Customs to implement this procedure, as a
minimum.

Additionally, during the review of open bills, the CDSOA Program
Manager stated that a problem with bond sufficiency exists. This
problem primarily results from port personnel accepting bonds that
are not sufficient to cover the duties owed plus interest when the
entry is eventually liquidated, that can be several years later.

The Program Manager stated further that some open bills are not
collected due to the length of time between entry and liquidation.
As such, some of the importers have gone out of business, and
there is no one to go back to for collection of additional duties
owed.

Management Comments

Customs Office of Field Operations personnel plan to closely
monitor the field to insure that all protests are finalized in an
expeditious manner. Once protests associated with an open bill are
finalized, the Office of Finance plans to proceed with the collection
process.

3. Large Number of Unliquidated Entries

Unliquidated entries also present an area for improvement. At
March 13, 2003, there were approximately one million unliquidated
antidumping and countervailing duty entries totaling $2 billion.
Customs’ personnel plan to develop reports to age these
unliquidated entries based upon the month that Commerce issued
antidumping orders. This aging would then be used by Commerce
and port personnel to focus increased attention on the older entries
that had not been liquidated.


Customs Needs to Improve Compliance with CDSOA   OIG-03-085    Page 17
It should be noted that there are valid reasons for entries to remain
unliquidated, such as Commerce’s administrative review has not
been completed or the final administrative results have been
challenged legally and one or more court injunctions issued
suspending liquidation. However, reviews performed to date have
indicated that in some cases the ports had overlooked Commerce
liquidation instructions, or Commerce had failed to issue proper
liquidation instructions. Clearing up the liquidation backlog should
be a high priority given the substantial dollars involved.

Management Comments

A reconciliation with Commerce is currently underway that will
help determine the inventory of unliquidated entries appropriately
as it applies to open cases. The Office of Field Operations
personnel are developing “aging” reports of unliquidated entries
based upon the month that Commerce issued antidumping orders.
These aging reports will be used by Commerce and Customs port
personnel to focus increased attention on the older entries that
have not been liquidated.

4. Limited Verification of Qualifying Expenditures

Customs did not verify qualifying expenditures specified on
certifications on a routine basis. The CDSOA Program Manager
stated that Customs investigates and verifies qualifying
expenditures only if a complaint is filed. In fiscal year 2001, there
were two such complaints filed. As of December 4, 2002, the
CDSOA Program Manager, had reviewed only one of those
complaints.

We questioned why there was not an annual review of qualifying
expenditures by Customs’ Office of Regulatory Audit. The CDSOA
Program Manager believed Regulatory Audit would not want to test
qualifying expenditures due to the lack of formal audit guidelines.
The Program Manager also believed without formal audit
guidelines, findings would result in no change, and a lot of time
spent in court arguing over the findings.




Customs Needs to Improve Compliance with CDSOA   OIG-03-085    Page 18
Title 19 CFR 159.63 (d) states, in part:

       Certifications are subject to verification. Parties,
       therefore, are required to maintain the accounting
       records used in developing their claims, for a period
       of years after the filing of the certification….
       Parties must be able to demonstrate that their
       records specifically support qualifying expenditures
       enumerated in a certification.

This regulation allows for the verification of the qualifying
expenditures on certifications submitted. Verifications would serve
as a deterrent against submission of deceptive certifications.
Untimely verifications could lead to a loss of revenue to other
deserving affected domestic producers if, in fact, deception is
discovered.

Management Comments

The CDSOA Working Group plans to develop a methodology to
address verifying qualifying expenditures specified on certifications
on a routine basis.

                              ******

We appreciate the cooperation we received from Customs’ officials
and personnel during the audit. If you wish to discuss this report,
you may contact me at (312) 886-0118.




Customs Needs to Improve Compliance with CDSOA   OIG-03-085    Page 19
Appendix 1

Objectives, Scope, and Methodology





The overall objective of the audit was to determine if Customs had
established appropriate procedures to comply with selected
requirements of the CDSOA. Our specific objectives were to
determine if Customs had: (1) established adequate accounting
procedures to ensure all applicable duties were included in the
special accounts prior to disbursement; and (2) established
adequate controls to ensure offset distributions were made timely
to the correct parties and for the correct amounts. We did not, as
part of our audit, test the eligibility of offset distribution.

We performed fieldwork at Customs’ Headquarters and its National
Finance Center, Indianapolis, Indiana. We interviewed Customs’
officials and personnel, as appropriate, and performed various
analyses relating to Customs’ payments of antidumping and
countervailing duty claims. These analyses included a review of
Customs’ existing policies and procedures, controls over special
accounts, and timetables for payment. The audit scope covered
fiscal year 2002 CDSOA payments.

We conducted the audit between October 2002 and February 2003
in accordance with generally accepted government auditing
standards.




Customs Needs to Improve Compliance with CDSOA   OIG-03-085   Page 20
Appendix 2
Disbursement Calculation




The law originally intended that the balance in the special accounts
is the amount that would be available to disburse. However, as
noted elsewhere in this report, the special accounts were not
established timely. The calculation cited below attempts to
capture all activity that would flow through the special accounts
during a fiscal year to arrive at an amount available for
disbursement to affected domestic producers.

The fiscal year 2002 calculation was performed as follows:
       Liquidated Duties During 2002
       + Interest on 2002 Liquidations
       + 2001 Open (unpaid) Bills at October 1, 2001
       + Interest on 2001 Open Bills at October 1, 2001
       Assessments for 2002 and Prior Year Unpaid Assessments
       - 2002 Open Bills at September 30, 2002
       - Interest on 2002 Open Bills

       - 2001 Open Bills at September 30, 2002

       - Interest on 2001 Open Bills at September 30, 2002

       Unpaid Assessments as of September 30, 2002

       +/- Prior Year Reliquidations 

       Total Amount Available to Disburse (Collections)


The rationale for this calculation formula is as follows:

   •	 The starting point for the calculation is to determine the total
      dollar amount, by antidumping and countervailing duty case,
      for all entries liquidated during the current fiscal year plus
      related accrued interest.

   •	 The next step is to determine the amount of open bills (open
      bills represent uncollected receivables from liquidated
      entries) and interest that existed at the beginning of the
      fiscal year resulting from prior year liquidations.

   •	 From this total, the dollar amount of open bills and interest
      for the current and prior fiscal years, outstanding as of
      September 30 of the current fiscal year, are subtracted. The
      reason open bills are added in and then subtracted is, to



Customs Needs to Improve Compliance with CDSOA   OIG-03-085    Page 21
Appendix 2
Disbursement Calculation




       determine the net change (collections) from one period to the
       next.

   •	 Then entries reliquidated for a decrease are subtracted.
      These are entries that had previously been liquidated for a
      greater amount. It should be noted that if the reliquidations
      had been for an increase, the additional amount would be
      included in the liquidations balance available to disburse.




Customs Needs to Improve Compliance with CDSOA   OIG-03-085   Page 22
Appendix 3
Management Comments




Customs Needs to Improve Compliance with CDSOA   OIG-03-085   Page 23

Appendix 3
Management Comments




Customs Needs to Improve Compliance with CDSOA   OIG-03-085   Page 24

Appendix 3
Management Comments




Customs Needs to Improve Compliance with CDSOA   OIG-03-085   Page 25

Appendix 3
Management Comments




Customs Needs to Improve Compliance with CDSOA   OIG-03-085   Page 26

Appendix 3
Management Comments




Customs Needs to Improve Compliance with CDSOA   OIG-03-085   Page 27

Appendix 3
Management Comments




Customs Needs to Improve Compliance with CDSOA   OIG-03-085   Page 28

Appendix 4

Major Contributors to this Report





Central Region

   Roberta N. Rickey, Regional Inspector General

   Robert C. Davis, Audit Manager

   Elizabeth R. Haskett, Auditor-in-Charge

   Thomas C. Werner, Auditor

   Mee Lun Williams, Auditor





Customs Needs to Improve Compliance with CDSOA   OIG-03-085   Page 29
Appendix 5
Report Distribution




Bureau of Customs and Border Protection

       Department of Homeland Security, Inspector General

Office of Management and Budget

       OMB Budget Examiner




Customs Needs to Improve Compliance with CDSOA   OIG-03-085   Page 30
